No. 20-1392
IN THE

Supreme Court of the United States

d

JASON FOWLER and MICAH PERKINS ,
Petitioners,

—v.—

BRITTANY IRISH , Individually and as Personal
Representative of the Estate of Kyle Hewitt,
and KIMBERLY IRISH ,
Respondents.
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE FIRST CIRCUIT

BRIEF OF THE MAINE STATE TROOPERS ASSOCIATION,
THE MAINE STATE LAW ENFORCEMENT ASSOCIATION,
THE MAINE ASSOCIATION OF POLICE, AND THE NEW
YORK CITY DETECTIVE INVESTIGATORS ASSOCIATION
AS AMICI CURIAE IN SUPPORT OF PETITIONERS

EMILY BRADFORD
Counsel of Record
LAW OFFICE OF EMILY BRADFORD
132 West 31st Street, 9th Floor
New York, New York 10001
(212) 464-8769
emily@ebradfordlaw.com
Counsel for Amici Curiae

i
TABLE OF CONTENTS
PAGE

INTEREST OF THE AMICI CURIAE . . . . . . . .

1

SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . .

4

ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

5

I. PETITIONERS ARE ENTITLED TO
QUALIFIED IMMUNITY BECAUSE
THEY DID NOT VIOLATE RESPONDENTS’
SUBSTANTIVE DUE PROCESS
RIGHTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
5
A. Contacting a Suspect Cannot Constitute
the Affirmative Act Under the StateCreated Danger Doctrine Because it
Is a Necessary Part of Every
Investigation . . . . . . . . . . . . . . . . . . . . . .

8

B. The Circuit Courts’ Tests Are Flawed
Because They Are Inconsistent About
What Conduct Must Shock the Conscience,
and Petitioners Conduct Was Not
Conscience Shocking . . . . . . . . . . . . . . .
10
C. Courts Are Inconsistent About What
Must Cause a Plaintiff’s Harm, and
Petitioners’ Conduct Did Not Cause
the Harm to Respondents. . . . . . . . . . .

18

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

22

ii
TABLE OF AUTHORITIES
PAGE(S)

Cases
County of Sacramento v. Lewis,
523 U.S. 833 (1998) . . . . . . . . . . . . . . . . . . . . . . 11, 18
DeShaney v. Winnebago County Department
of Social Services,
489 U.S. 189 (1989) . . . . . . . . . . . . . . . . . . . . . . 4, 5, 6
Henry A. v. Willden,
678 F.3d 991 (9th Cir. 2012) . . . . . . . . . . . . 8, 11, 12
Kennedy v. City of Ridgefield,
439 F.3d 1057 (9th Cir. 2005) . . . . . . . . . . . . .

9

Matthews v. Bergdorf,
889 F.3d 1136 (10th Cir. 2018) . . . . . . . . . . . .

10

McDowell v. Village of Lansing,
763 F.3d 762 (7th Cir. 2014) . . . . . . . . 11, 12, 19, 20
Nicholas v. Wallenstein,
266 F.3d 1083 (9th Cir 2001) . . . . . . . . . . . . . .

12

Okin v. Village of Cornwall-On-Hudson Police Dept.,
577 F.3d 415 (2d Cir. 2009) . . . . . . . . . . . . . . .
8
Pinder v. Johnson,
54 F.3d 1169 (4th Cir. 1995) . . . . . . . . . . . . . .

9

Sandage v. Board of Com’rs
of Vanderburgh County,
548 F.3d 595 (2008) . . . . . . . . . . . . . . . . . . . . . .

9

Sanford v. Stiles,
456 F.3d 298 (3d Cir. 2006) . . . . . . . . . . 8, 11, 18, 19
Town of Castle Rock v. Gonzales,
545 U.S. 748 (2005) . . . . . . . . . . . . . . . . . . . . . .

9

iii
PAGE(S)

Wallace v. Adkins,
115 F.3d 427 (7th Cir. 1997) . . . . . . . . . . . . . .

9

Statutes
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1, 2

1
INTEREST OF THE AMICI CURIAE1
Claims under 42 U.S.C. § 1983 predicated on the
state-created danger doctrine invariably involve
horrific facts. This case is no exception. In July 2015,
Maine State Police Detectives Micah Perkins and
Jason Fowler, Petitioners in this action, were
assigned to investigate allegations that Anthony Lord
kidnapped and sexually assaulted Brittany Irish.
They responded immediately, interviewed the alleged
victim, gathered evidence, and later called Lord in an
attempt to locate him and take his statement.
Approximately thirty hours after Petitioners began
their investigation, Lord set fire to the Irishs’ barn,
his prelude to a violent rampage that included:
attacking a man with a hammer and stealing his
truck and guns; shooting five people, two of whom
died as a result; abducting Brittany Irish; firing on
police officers; and fleeing law enforcement in a chase
that ultimately ended in Lord’s arrest near the
Canadian border. Because of the First Circuit’s
ruling, Petitioners must now stand trial to determine
whether their decision to leave a voicemail for Lord
and their subsequent inability to prevent his reign of
terror makes them liable for the violence he inflicted.
The Maine State Troopers Association (“MSTA”),
The Maine State Law Enforcement Association
(“MSLEA”), The Maine Association of Police (“MAP”),
1 Pursuant to Supreme Court Rule 37.6, amici and their
undersigned counsel represent that counsel for amici authored
this brief in its entirety. No counsel for any party authored this
brief in whole or in part, and no entity or person, other than the
Maine State Troopers Association, contributed financially
towards the preparation and submission of this brief. All parties
were timely notified of the submission of the brief and consented
to its submission.

2
and the New York City Detective Investigators
Association (“NYCDIA”) respectfully submit this brief
as amici curiae in support of Petitioners. Amici are
troubled by the First Circuit’s decision to adopt a
state-created danger theory of liability under § 1983
for the first time in this case, and to deny qualified
immunity to Petitioners, who acted reasonably and
diligently under dangerous and tragic circumstances.
The decision ignores the reality of law enforcement in
Maine, with its rural geography and limited
resources, and imposes liability on officers who
undertake to protect the public in such conditions. It
fails to recognize that investigations take place in the
context of existing danger and require law
enforcement to make many decisions based on
incomplete information, any one of which could be
second-guessed in hindsight.
MSTA represents approximately 270 members of
the Maine State Police (“MSP”). MSP has
jurisdictional authority throughout Maine, enforcing
criminal and motor vehicle laws in primarily rural
areas lacking municipal law enforcement. MSP has a
Major Crimes Unit responsible for investigating,
among other things, all homicides in Maine except for
those in the cities of Bangor and Portland. MSP faces
significant logistical challenges responding to calls for
service in a geographic area larger than all of the
other New England states combined. Often there are
fewer than 40 troopers assigned to the rural patrol
function across the entire State, and MSP generally
does not run an overnight shift within these rural
patrol areas. In many areas, radio and cellular
communications are substandard or non-existent, and
back up is a rare luxury. These factors necessarily
influence how MSP conducts investigations.

3
MAP represents 47 local Maine police associations
in their respective municipalities and has a total
membership of approximately 950. MLSEA represents
approximately 340 officers from eleven state law
enforcement groups in Maine. Like Petitioners,
members of MAP and MLSEA perform their jobs with
limited resources over a large, sparsely populated
geographic area, which affects all aspects of how they
perform their jobs.
NYCDIA represents 275 detective investigators
employed by the five county District Attorneys and
the Special Narcotics Prosecutor in New York City.
Its members are assigned to complex investigations
involving fraud, major narcotics trafficking, and
political corruption, as well as allegations of wrongful
convictions. Like Petitioners and members of the
MSP’s Major Crimes Unit, they are called upon to
make difficult decisions about when and how to
approach suspects and witnesses in evolving and
often dangerous situations.
Amici’s members can see themselves in Petitioners’
position. Even with the benefit of hindsight, it is
impossible to know what course of action might have
averted the tragic events of July 2015. The First
Circuit’s decision sheds no light. If allowed to stand,
this decision expands how the state-created danger
doctrine applies to the most fundamental tool of law
enforcement: talking to witnesses and suspects. From
a personal liability perspective, the safest thing for
an officer to do in the face of a dangerous situation is
nothing. Amici did not join law enforcement to stand
by and do nothing, which is why they support
Petitioners in urging the Court to grant certiorari to
examine this troubling doctrine.

4
SUMMARY OF ARGUMENT
The state-created danger doctrine, which this
Court has never recognized and which the First
Circuit adopted for the first time in this case, is an
exception to the general rule that the State’s failure
to protect people from private violence does not
violate the Due Process Clause. See DeShaney v.
Winnebago County Department of Social Services, 489
U.S. 189 (1989). Based on a few lines of dicta in
DeShaney, most circuits have adopted some version of
a state-created danger test which imposes a duty on
officers to protect individuals from privately inflicted
harm if officers engage in affirmative acts a court
concludes created or enhanced a danger to those
individuals, and if the officers’ conduct shocks the
conscience of the court. Petitioners argue in support
of certiorari that the First Circuit erred in denying
them qualified immunity because there was no
settled law in the First Circuit as of July 2015 that
would have put them on notice that the voicemail
they left for Lord could constitute a state-created
danger, nor was there a consensus of law in other
circuits on this point. Pet. at 20-28. Amici agree and
will not repeat these arguments.
Amici contend that the state-created danger tests
articulated by the First Circuit and other lower
courts are fundamentally flawed. They are
inconsistent with this Court’s substantive due process
precedent and fail to provide law enforcement with
clear guideposts for their conduct. The First Circuit’s
formulation of the state-created danger test strays
even further from this Court’s precedents,
particularly in its application of the “shocks the
conscience” standard to conduct “viewed in total,”
App. at 20. Conspicuously missing from nearly every

5
formulation of these tests is any element assessing an
officer’s effort to protect the plaintiff. This is a
striking omission for a doctrine that purports to
describe when the State’s failure to protect becomes a
constitutional tort.
This Court should grant certiorari to clarify
whether the state-created danger doctrine is a valid
exception to the rule in DeShaney, and if so, how it
defines the scope of an officer’s duty to protect once
triggered. It should reject any standard of culpability,
such as the one the First Circuit articulated, which
evaluates whether conduct “viewed in total” shocks
the conscience. This formulation fails to identify what
conduct triggers a constitutional duty to protect, and
what conduct breaches that duty. As applied by the
First Circuit, it predicates liability on conduct
unrelated to any harm, and over which officers had
no knowledge or control.
ARGUMENT
I. PETITIONERS
ARE
ENTITLED
TO
QUALIFIED IMMUNITY BECAUSE THEY
DID
NOT
VIOLATE
RESPONDENTS’
SUBSTANTIVE DUE PROCESS RIGHTS.
The state-created danger doctrine is one of two
exceptions to the rule that state actors have no
affirmative duty to protect individuals from harm
inflicted by third parties. The first exception, and the
only one recognized by this Court, is that “when the
State takes a person into its custody and holds him
there against his will, the Constitution imposes upon
it a corresponding duty to assume some responsibility
for his safety and general well-being.” DeShaney, 489
U.S. at 199-200. For purposes of the substantive due
process analysis, “it is the State’s affirmative act of

6
restraining the individual’s freedom to act on his own
behalf—through incarceration, institutionalization,
or other similar restraint of personal liberty—which
is the ‘deprivation of liberty’ triggering the
protections of the Due Process Clause, not its failure
to act to protect his liberty interests against harms
inflicted by other means.” DeShaney, 489 U.S. at 200.
The state-created danger doctrine purports to be a
second exception to DeShaney. It apparently derives
from the Court’s observation in DeShaney that the
State “played no role” in creating the danger the
plaintiff faced. See DeShaney, 489 U.S. at 201. The
First Circuit has joined the Second, Third, Fourth,
Sixth, Seventh, Eighth, Ninth, Tenth, and District of
Columbia Circuits in adopting a version of the statecreated danger doctrine, pursuant to which officers
can be personally liable for private violence when the
State or one of its officials engages in an affirmative
act creating or enhancing the danger of such violence.
For courts to apply this exception consistently, and
for officers to be on notice of its contours, at a
minimum the doctrine must articulate what will
trigger the exception and define the scope of an
officer’s duty to protect when the exception applies.
The First Circuit’s test fails on both fronts.
To make out a state-created danger claim in the
First Circuit, a plaintiff must establish:
(1) that a state actor or state actors affirmatively
acted to create or enhance a danger to the
plaintiff;
(2) that the act or acts created or enhanced a
danger specific to the plaintiff and distinct from
the danger to the general public;

7
(3) that the act or acts caused the plaintiff’s
harm; and
(4) that the state actor’s conduct, when viewed in
total, shocks the conscience.
(i) Where officials have the opportunity to
make unhurried judgments, deliberate
indifference may shock the conscience,
particularly where the state official performs
multiple acts of indifference to a rising risk of
acute and severe danger. To show deliberate
indifference, the plaintiff must, at a bare
minimum, demonstrate that the defendant
actually knew of a substantial risk of serious
harm and disregarded that risk.
(ii) Where state actors must act in a matter of
seconds or minutes, a higher level of
culpability is required.
App 20.
This test, both as articulated in the abstract and as
applied to the facts of this case, fails to clearly
identify when the state-created danger exception
applies and what conduct violates a plaintiff’s
constitutional rights. This brief examines the
elements of the First Circuit’s test to demonstrate
these shortcomings. It addresses similar elements in
the state-created danger tests of other circuits to
show that courts apply these elements inconsistently
and unpredictably. Amici urge this Court to grant
certiorari to examine this problematic doctrine.

8
A. Contacting a Suspect Cannot Constitute
the Affirmative Act Under the StateCreated Danger Doctrine Because it Is a
Necessary Part of Every Investigation.
Circuits that have adopted a state-created danger
doctrine uniformly require that the official engage in
“affirmative action” with respect to the danger to the
plaintiff. See, e.g., Okin v. Village of Cornwall-OnHudson Police Dept., 577 F.3d 415, 428 (2d Cir. 2009)
(requiring that state actors affirmatively create or
enhance the danger of private violence); Sanford v.
Stiles, 456 F.3d 298, 304-05 (3d Cir. 2006) (requiring
that “a state actor affirmatively used his or her
authority in a way that created a danger to the
citizen or that rendered the citizen more vulnerable
to danger than had the state not acted at all”); Henry
A. v. Willden, 678 F.3d 991, 1002 (9th Cir. 2012)
(requiring that “affirmative actions of the official
placed the individual in danger he otherwise would
not have faced”). This is an essential element. It is
the affirmative, danger-creating conduct that
purportedly makes these cases an exception to the
DeShaney rule that failing to protect individuals from
private violence does not violate the Due Process
Clause.
The First Circuit’s decision that leaving a voicemail
for a suspect too early in an investigation can satisfy
this element expands the state-created danger
exception to such a degree that it threatens to
swallow the rule. Taking Irish’s allegations as true,
any attempt to contact Lord would have increased the
danger to Irish and her family. Yet to investigate her
allegations, Petitioners had to contact Lord at some
point. In nearly every investigation, officers must
make difficult decisions about when and how to
contact suspects and witnesses. There are no entirely

9
safe decisions, and any approach can be criticized in
hindsight. If these decisions can trigger the statecreated danger exception, then almost any steps
officers take in an investigation may subject them to
personal liability.
Though Petitioners’ voicemail was the only
affirmative danger-enhancing act the district court
found, the First Circuit found a jury could conclude
Petitioners enhanced the danger to Respondents by
providing false assurances of protection. App. 30.
Putting aside the fact that the record does not reflect
Petitioners made any false assurances, the First
Circuit ignored the weight of authority holding that
false assurances of protection are not affirmative acts
that can trigger the state-created danger exception.
See, e.g., Pinder v. Johnson, 54 F.3d 1169, 1177 (4th
Cir. 1995) (holding a state actor’s promise to take
specific action to protect a plaintiff, where the
plaintiff detrimentally relied on that promise, was
not the type of conduct that creates a duty to protect
under the Due Process Clause); Wallace v. Adkins,
115 F.3d 427 (7th Cir. 1997) (ordering a prison guard
to remain at his post with an inmate who threatened
to kill him and providing false assurances of
protection, while affirmative acts, did not place
plaintiff in a danger he otherwise would not have
faced therefore did not satisfy the affirmative act
element); Sandage v. Board of Com’rs of Vanderburgh
County, 548 F.3d 595 (2008) (based on this Court’s
holding in Town of Castle Rock v. Gonzales, 545 U.S.
748 (2005), a promise to protect is not enforceable
under the Fourteenth Amendment); but see Kennedy
v. City of Ridgefield, 439 F.3d 1057, 1063 (9th Cir.
2005) (notifying suspect of plaintiff’s allegation in
violation of a promise to warn her before doing so,

10
and false assurance
affirmative acts).

of

protection

constituted

Disturbingly, the First Circuit went one step
further, suggesting that false assurances about police
protection from other officials, about which
Petitioners had no knowledge, could support liability
under the state-created danger doctrine. App. 10.
Several hours before Lord arrived at the Irish
residence, Brittany Irish’s mother contacted an 800
number for the Maine State Police and proposed that
Respondents drive to the police station and remain in
the parking lot overnight. Id. An unnamed official
purportedly advised Ms. Irish to remain at home and
assured her there were officers in the vicinity. Id. It
is unknown who made these statements and there is
no evidence Petitioners knew of this phone call. Id.
Nonetheless, the court stated “[a] jury could find that
these statements were not true, and that each piece
of that advice was relied on by the plaintiffs and
increased the risk to them.” Id. The First Circuit’s
statement that a jury could rely on such evidence to
find Petitioners liable in this case is plainly
inconsistent with the Court’s holding in DeShaney.
B. The Circuit Courts’ Tests Are Flawed
Because They Are Inconsistent About
What
Conduct
Must
Shock
the
Conscience, and Petitioners Conduct Was
Not Conscience Shocking.
The majority of circuits that have adopted the
state-created danger doctrine require that an officer’s
conduct “shock the conscience” in order to violate the
Due Process Clause. See, e.g., Matthews v. Bergdorf,
889 F.3d 1136, 1150 (10th Cir. 2018) (official must act
recklessly, in conscious disregard of a known or
obvious risk, and such conduct, when viewed in total,

11
must be conscience shocking); McDowell v. Village of
Lansing, 763 F.3d 762, 766 (7th Cir. 2014) (the
failure to protect must shock the conscience);
Sanford, 456 F.3d at 304-05 (requiring a degree of
culpability that shocks the conscience); cf Henry A.,
678 F.3d at 1002 (requiring that officer act with
deliberate indifference to a known or obvious danger).
The shocks the conscience standard derives from
County of Sacramento v. Lewis, in which this Court
noted that to prevent the Constitution from being
“demoted to . . . a font of tort law,” the action
challenged on due process grounds must be “so
egregious, so outrageous, that it may fairly be said to
shock the contemporary conscience.” 523 U.S. 833,
847 n8. (1998). In Lewis, this Court held that where
an officer fatally struck a fleeing motorcyclist in a
high-speed chase, proof of intent to harm was
required to shock the conscience. Id. at 854. The
Court contrasted pursuit cases with cases involving
the failure to provide adequate medical treatment to
people in custody, where deliberate indifference
suffices to shock the conscience. Id. at 853.
In Lewis, the Court examined whether the officer’s
high-speed pursuit, where he struck and killed a
motorcyclist, shocked the conscience because the
officer’s conduct, not that of a third party, deprived
the plaintiff of his life. Where the allegation is that
an officer failed to protect the plaintiff from harm
caused by a third party, an exception to DeShaney
must apply before a court examines whether the
officer’s conduct shocks the conscience. In cases
involving the custody exception, courts inquire into
whether a state actor’s failure to protect shocks the
conscience only because custody triggers a duty of
care under the Due Process Clause.

12
Yet courts often fail to articulate whether the
shocks-the-conscience prong of the state-created
danger test applies to the danger-creating conduct or
the failure to protect the plaintiff from the third
party. As with the custody exception, courts should
analyze whether an officer’s failure to protect shocks
the conscience only if the state-created danger
exception creates a constitutional duty to protect. An
analysis of whether officers possessed the requisite
culpability when failing to provide protection cannot
establish whether they had a constitutional duty to
protect in the first place. And courts often analyze
whether the failure to protect shocks the conscience,
without examining whether the danger-creating
conduct shocks the conscience. See, e.g., Nicholas v.
Wallenstein, 266 F.3d 1083, 1088 (9th Cir 2001)
(failing to analyze whether the danger-enhancing act
of releasing an incident report identifying plaintiffs
constituted deliberate indifference, but ultimately
concluded that “[n]o deliberate indifference to known
or obvious dangers after the report’s release has been
shown”) (emphasis added); McDowell, 763 F.3d at 766
(articulating the Seventh’s Circuit’s standard that the
failure to protect must shock the conscience)
(emphasis added).
But applying the shocks-the-conscience standard
only to the alleged danger-creating conduct is also
problematic. When the victim is harmed by a third
party and alleges that officers were deficient in
providing protection, those officers should only be
subject to liability if their failure to protect shocks the
conscience. Yet courts applying the state-created
danger exception often omit any analysis of an
officer’s culpability in failing to protect the plaintiff.
See, e.g., Henry A., 678 F.3d at 1002 (finding that
plaintiffs stated a valid claim because officials

13
engaged in danger-creating conduct with deliberate
indifference, without the officials’ culpability for their
failure to protect).
The First Circuit's test, which requires courts to
evaluate whether the conduct “viewed in total” shocks
the conscience, combines the worst of these
approaches. It is possible that neither the dangerenhancing act nor the failure to protect alone shocks
the conscience, but that in combination, the conduct
is conscience-shocking. Relatively innocuous acts may
become conscience-shocking in retrospect, and
omissions, ordinarily beyond the scope of the court’s
threshold analysis, become relevant. Unlike courts
reviewing their conduct, officers experience events
sequentially, in real time. As events unfold, they
cannot go back and change what they have already
done or failed to do. Evaluating whether conduct
“viewed in total” shocks the conscience easily elides
the perspective of the officer.
This case exemplifies the inherent shortcomings of
the First Circuit’s approach. Petitioners decided to
call Lord and leave a voicemail based on the
information known to them at the time. Though they
had reasons to question Brittany Irish’s credibility,
they expended significant effort investigating her
complaint, including by visiting one of the campsites
where she claimed Lord sexually assaulted her,
collecting physical evidence, and interviewing Irish
and her friends. They informed Irish they intended to
call Lord before doing so, and she did not express
concern about her safety at that time. Petitioners’
voicemail did not inform Lord that he was a suspect,
that Irish had made a complaint about him, or
provide him with any information aside from a name
and a call back number. No reasonable jury could find
this conduct conscience shocking.

14
According to the First Circuit, “the claim is not that
the defendants should not have contacted Lord at all,
but that the manner in which the officers did so [...]
was wrongful.” App. 21. By “manner,” the court
appears to mean that Petitioners should have tried to
find Lord in person rather than call him or that they
should have waited longer before contacting him. But
there were no entirely “safe” options for contacting
Lord, and the court does not suggest otherwise. In
hindsight, Petitioners would likely pursue a different
strategy, but even hindsight does not reveal an
obvious best approach. It is not clear that even the
First Circuit concluded the decision to leave Lord a
voicemail, by itself, shocks the conscience. Under the
test it articulated, it is impossible to know. Officers
reviewing this decision would be justified in
concluding that whenever they attempt to contact a
suspect, they may be personally liable for the
suspect’s future actions.
Assuming the voicemail gave rise to a
constitutional duty to protect, the First Circuit’s
decision fails to address the scope of that duty or
explain how Petitioners’ conduct fell short to a degree
that shocks the conscience. Before leaving the
voicemail, Petitioners spent the day conducting
interviews. They left the voicemail just after 6:00 pm.
Upon learning about the fire at the Irishs’ barn in
Benedicta, Maine that same evening, they became
concerned Lord was involved and drove to Benedicta,
over an hour north of Bangor. They remained on duty
until 3:00 am the next morning, searching for Lord
and additional evidence. Among other things, they:
requested a K9 unit at the scene of the barn fire to
assist the search for Lord; conducted a background
check on Lord and contacted his parole officer, who
was unable to locate Lord; requested the Caribou,

15
Maine police department conduct a safety check on
Brittany Irish’s children; requested a Bangor police
officer drive to Acadia Hospital in Bangor to look for
Lord; drove to Crystal, Maine, another half hour
north of Benedicta, to search for Lord at his uncle’s
house, Lord’s last known residence; and drove to
Sherman, Maine, located between Benedicta and
Crystal, to search for evidence of the alleged assault.
Petitioners drove over 100 miles that night searching
for Lord and evidence of his alleged crimes.
The First Circuit impliedly criticized every decision
to drive to a location, pointing out that Petitioners
did not explain why they or other officers did not call
instead. At no point did the First Circuit acknowledge
that the significant time and resources involved in
searching for a person in rural Maine might have
influenced Petitioners’ initial decision to try calling
Lord. Nor did it acknowledge that Petitioners’
decision to pursue Lord in person without calling
ahead was likely a reasonable adjustment in strategy
after the barn fire. A reasonable officer reading the
First Circuit’s decision could conclude that the
Constitution governs whether an officer should place
a phone call or travel to a location in person, yet the
decision provides no specific guidance on how to
discern what the Constitution requires in any
particular scenario.
The First Circuit also observed that Irish called
Petitioners that night and requested police protection
at her parents’ home in Benedicta. Petitioners
conveyed this request to their supervisor, who denied
it. Though no harm came to Respondents while they
awaited Petitioners’ response, the First Circuit
nonetheless criticized Petitioners for failing to convey
Irish’s request to their supervisor immediately, and
for waiting an hour to inform Irish of the denial.

16
Petitioners’ relatively short delay in conveying their
supervisor’s decision neither created nor increased
the existing danger to Respondents, nor did it
constitute a failure to protect within Petitioners’
control, yet under the First Circuit’s analysis, a jury
could consider it in deciding whether Petitioners’
conduct shocks the conscience. See App. 30.
As discussed in the previous section, the First
Circuit holds Petitioners responsible for the acts and
omissions of others by suggesting that Respondents
might have relied to their detriment on the advice of
an unnamed person who answered their call to an
800 number for the Maine State Police. Though
Petitioners had no authority to order police protection
at the Irish residence, and had no knowledge of
Irish’s call to the 800 number, the First Circuit found
that “[a] jury could also conclude that the defendants
played a role in the decision to withdraw all resources
from the area without telling the plaintiffs that they
had done so, thereby allowing the plaintiffs to believe
more protection was available than was actually
true.”2 App. 30. It is unclear what “role” Petitioners
played in the decisions to allocate resources they did
This conclusion is at odds with the district court’s findings, on
which the First Circuit relied, that Petitioners had no
knowledge of Irish’s call to the 800 number and made no false
assurances of protection to Respondents. App. 89 n102, 93 n109,
153. While the district court did not find Petitioners were
responsible for the decision not to provide overnight protection,
it concluded that “there were many other steps they could have
taken to assure the Plaintiffs’ safety without any expenditure of
MSP resources,” such as suggesting they spend the night at a
motel. App. 165. The court’s observation highlights the
absurdity of the hindsight analysis the First Circuit has
dictated. If the Constitution imposed a duty on Petitioners to
protect Respondents, surely that duty required expending MSP
resources, not providing directions to a local motel.

2

17
not control. What is clear is that, under the First
Circuit’s analysis, courts and juries can consider a
wide range of conduct having nothing to do with an
officer in evaluating the shocks-the-conscience
element.
Petitioners argued on appeal to the First Circuit
that officers’ violations of state law or police policy
cannot serve as the basis of a state-created danger
claim. The First Circuit disclaimed elevating police
procedures to constitutional requirements yet found
that police procedure “bears on all prongs of the
qualified immunity analysis,” such that “when an
officer disregards police procedure, it bolsters the
plaintiff’s argument [. . .] that an officer’s conduct
‘shocks the conscience.’” App. 24. It is a distinction
without a difference to say that violating a local
police policy does not equate with violating the
Constitution, but that a jury may find conduct shocks
the conscience because it violates a local police policy.
Both the First Circuit and district court decisions
point to the Petitioners’ purported violations of
various police procedures, including failing to conduct
a background check on Lord as the first step in the
investigation and not making Irish’s safety their
“first priority.” App. 12-14. It is unclear, and neither
court explains, how conducting a background check
on Lord a day earlier in the investigation would have
protected Respondents, or how waiting a day created
or enhanced any danger to them. Nor do the courts
explain precisely how Petitioners should have or
could have made Brittany Irish’s safety their first
priority. Yet the First Circuit found that “the
defendants’ apparent utter disregard for police
procedure could contribute to a jury’s conclusion that
the defendants conducted themselves in a manner
that was deliberately indifferent to the danger they

18
knowingly created, and that they thereby acted with
the requisite mental state to fall within the ambit of
the many cases holding that a violation of the Due
Process Clause requires behavior that ‘shocks the
conscience.’”3 App. 30.
Under the First Circuit’s application of the shocksthe-conscience standard, a jury need not find that
either Petitioners’ alleged danger-enhancing conduct
or their purported failure to protect Respondents,
standing alone, shocks the conscience. Indeed, it is
hard to imagine how a jury could make either finding.
The First Circuit has stretched the shocks-theconscience standard beyond recognition by applying it
to conduct “viewed in total,” regardless of whether
the conduct has any relation to the harm caused, or
whether the officers even engaged in the conduct
themselves.
C. Courts Are Inconsistent About What Must
Cause a Plaintiff’s Harm, and Petitioners’
Conduct Did Not Cause the Harm to
Respondents.
Most of the circuits that have adopted the statecreated danger doctrine incorporate causation
elements into their tests. See, e.g., Sanford, 456 F.3d
at 304-05 (the harm ultimately caused was
foreseeable and fairly direct and a relationship
between the state and the plaintiff existed such that
the plaintiff was a foreseeable victim of the
The First Circuit went on to note that failing to incorporate
violations of police procedure into this analysis “would
encourage government officials to short-cut proper procedure
and established protocols.” Id. But if the Constitution is not a
“font of tort law,” Lewis, 523 U.S. at 847 n8, then neither should
courts employ it as a deterrent against police officers’
shortcutting departmental procedures.

3

19
defendant’s acts); McDowell, 763 F.3d at 766 (“failure
on the part of the state to protect the individual from
such a danger must be the proximate cause of his
injury”).
While the tests in many circuits speak to proximate
or foreseeable harm, the First Circuit’s formulation
asks whether the defendant’s affirmative acts caused
the harm. App. 20. But in claims alleging a statecreated danger theory, the direct cause of the
plaintiff’s harm is someone or something other than
the state official, and the crux of the plaintiff’s
complaint is that the official failed to protect the
plaintiff from that harm. If the state official’s dangerenhancing conduct causes the harm directly, there is
no need to address the failure to protect at all. In this
case, the First Circuit relied on the district court’s
reasoning regarding the causation elements. The
district court applied the Third Circuit’s state-created
danger test, which looks at the foreseeability of harm,
and the foreseeability of the plaintiff as a victim,
Sanford, 456 F.3d at 304-05, so it remains unclear
how the First Circuit’s formulation of the causation
elements should apply in this case.
Similar to the shocks-the-conscience element,
courts are inconsistent about what must cause the
plaintiff’s harm in cases involving third party
violence: the danger created by the state actor, or the
state actor’s failure to protect the plaintiff from that
danger. This distinction has practical importance to
law enforcement officers attempting to discern the
scope of their constitutional duty to protect under a
state-created danger theory. If the harm need only be
a foreseeable outcome of the danger-creating
affirmative act, then an officer’s subsequent failure to
protect the plaintiff is irrelevant. If state-created
danger cases do not depend on a duty to protect at all,

20
an officer's failure to protect should not be relevant to
other elements of the analysis. But if the officer’s
failure to protect must be the proximate cause of the
plaintiff’s harm, as articulated in the Seventh
Circuit’s formulation of the test, McDowell, 763 F.3d
at 766, then understanding the scope of the duty to
protect is essential to the analysis, and it is fair to
evaluate what, if any, protection the officer provided.
The First Circuit’s decision in this case underscores
how this ambiguity can distort the overall analysis.
The First Circuit seems to require only that harm to
the plaintiff was foreseeable in light of the dangercreating affirmative act. This is the analysis the
district court applied, applying the Third Circuit’s
test. Yet after finding that Lord’s rampage was a
foreseeable outcome of Petitioner’s voicemail (a
dubious proposition at best), both the district court
and the First Circuit went on to analyze Petitioners’
subsequent conduct, with a particular focus on
whether it comported with proper police procedure.
Neither court seemed to assert that the myriad shortcomings in police procedure they noted had a causal
relationship to the harm. The result is that a series of
alleged failures after leaving the voicemail, that
caused no harm to Respondents, could nonetheless
contribute to the conclusion that the Petitioners are
liable because the court found that conduct
conscience-shocking.
The First Circuit’s test, consistent with most other
Circuits, requires that the affirmative acts create or
enhance a danger specific to the plaintiff, distinct
from the general public. This element is broadly
consistent with the notion that the harm should be a
foreseeable outcome of the officer’s conduct, and with
the concept that a duty to protect should identify who
needs protection. This element, however, does not

21
seem to have been a limiting factor in either the
district court’s or the First Circuit’s decision. The
district
court
applied
the
Third
Circuit’s
foreseeability test, and it found the harm to
Respondents
foreseeable
because
Lord
had
threatened Brittany Irish and her boyfriend
specifically. The district court provides a lengthy,
detailed recitation of the facts, yet it fails to mention
that Lord attacked seven people in his rampage, not
including the police officers he fired on. Four of them
were strangers to Irish and outside any protection
under the state-created danger doctrine. Looking at
the full scope of Lord’s violence, it does not appear to
be a remotely foreseeable outcome of Petitioners'
voicemail, nor related in any way to their failure to
follow proper procedures.
Lord burned Brittany Irish’s parents’ barn to the
ground. App. 6, 87. He attacked a man with a
hammer and stole his truck and two guns. App. 10.
He then shot and kicked his way into the Irish
residence, shot and killed Irish’s boyfriend, chased
Irish into the bathroom, and fired at her as she
escaped out the window, striking her mother’s arm in
the process. App. 10-11. When Irish attempted to
escape in a passing truck, Lord shot the driver three
times and abducted but Irish. App. 11. Miraculously,
the driver survived. Lord then shot two additional
men he encountered on a woodlot in Lee, Maine after
borrowing one of their cellphones. App. 11 n2. One of
the men died. The First Circuit’s opinion mentions
these victims, and the fact that Lord fired on police as
they pursued him and stole two additional trucks and
an ATV, only in a footnote. Id.
Comparing the actual outcome with the danger
that was foreseeably enhanced is instructive on both
the causation elements and the affirmative act

22
element. Here, petitioners left a voicemail for Lord
asking for a return call. The voicemail did not name
Irish or refer to any specific case. In fact, the evidence
in the record suggests Lord did not immediately
connect the voicemail to Irish. App. 68. The sheer
magnitude and scope of Lord’s violence demonstrates
that it was not a foreseeable outcome of a voicemail
requesting a return call. Or, put another way, Lord
was clearly more volatile and dangerous than anyone
understood, and whatever role the voicemail played,
it could not have meaningfully enhanced the
significant danger he already posed.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
Emily Bradford
Law Office of Emily Bradford
132 West 31st Street, 9th Floor
New York, NY 10001
(212) 464-8769
emily@ebradfordlaw.com
Counsel for Amici Curiae

